U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: TJ Cain v. United States, No. 20-5639
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 3,
2020. The government’s response is now due, after one extension, on November 9, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5639
CAIN, TJ
USA

KATHLEEN SHEN
OFFICE OF FEDERAL PUBLIC DEFENDER
633 17TH STREET
STE. 1000
DENVER, CO 80202
303-294-7002
KATHLEEN_SHEN@FD.ORG

